OIG Audit Report GR-30-01-004
Marshall University Research Center 
Forensic DNA Laboratory Improvement Program, Phase 4
Audit Report GR-30-01-004
February 22, 2001
Office of the Inspector General

Executive Summary
The Office of the Inspector General (OIG), Audit Division, has completed an audit of grant number 98-DN-VX-K001 awarded by the U.S. Department of Justice, Office of Justice Programs, National Institute of Justice to the Marshall University Research Center (MURC).  The MURC received awards of $2,000,000 in 1998 and $2,000,000 in 1999 to increase both the capabilities and capacity of state and local forensic laboratories to conduct state-of-the-art DNA testing in support of the investigation and adjudication of violent crime.

Our audit concentrated on, but was not limited to, the period of August 7, 1998 through June 30, 2000.  We reviewed transactions to determine whether costs were allowable, allocable, reasonable, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.  We also reviewed requests for reimbursement, budget deviations, and the accuracy and timeliness of financial and progress reports.

We found that:

administrative and financial controls were adequate to provide accurate and reliable operating and financial information;
	costs claimed under the grant were allowable, allocable, reasonable, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant;
	progress and financial status reports were submitted timely and accurately reflected grant activity; and
	activities outlined in the grant application to meet the grant objectives were implemented.

These items are discussed in detail in the FINDINGS section of the report.  Our SCOPE AND METHODOLOGY appears in Appendix I.